filed
JAN 2 i} 2021
SUPREEMFFnni^lfLERK

u.s.

IN THE
SUPREME COURT OF THE UNITED STATES

ALBERTO MATIAS-MARTINEZ

— PETITIONER

(Your Name)

vs.
DEAN WILLIAMS

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

u.s.

COURT OF APPEALS FOR THE TENTH CIRCUIT

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

ALBERTO MATIAS-MARTINEZ #81725, Pro Se

(Your Name)
AVCF, 12750 Hwy 96 Lane 13

(Address)
Ordway, Colorado 81034
(City, State, Zip Code)

(Phone Number)

QUESTIONS PRESENTED FOR REVIEW
I.

WHETHER THE LOWER COURTS ERRED IN FAILING TO FIND THAT Mr.

MATIAS-MARTINEZ'S § 2254 HABEAS APPLICATION WAS TIMELY FILED,
OR IN THE ALTERNATE, THAT HE WAS ENTITLED TO EQUITABLE TOLLING
OF THE STATUTORY TIME LIMITATIONS SET BY §2244(D)(1)(A), DUE TO
STATE-IMPOSED IMPEDIMENT OR BECAUSE HE IS ACTUALLY INNOCENT?

II.

WHETHER THIS COURT, FOR THE BETTERMENT AND PROTECTION OF THE

CITIZENS OF THESE UNITED STATES, MUST CLARIFY AND MAKE THE RULE
ABSOLUTE FOR THE LOWER COURTS AND THE STATES IN REGARDS TO THE
PROVISIONS SET FORTH BY THIS COURT IN MARTINEZ V. RYAN, 132 S.CT.
1309 (2012), ALLOWING FOR EQUITABLE TOLLING OF THE STATUTORY
LIMITATIONS SET BY 28 U.S.C. § 2244(D)(1)(A), UNDER SUBSECTION
(B) OF THAT STATUTE, WHEN SUCH DEFAULT IS THE RESULT OF
INEFFECTIVE ASSISTANCE OF COUNSEL?

2

LIST OF PARTIES

[ ] All parties appear in the caption of the case on the cover page.
fd All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:
DEAN WILLIAMS, EXECUTIVE DIRECTOR COLORADO DEPARTMENT OF CORRECTIONS
AND
ATTORNEY GENERAL OF THE STATE OF COLORADO

RELATED CASES
Alberto Matias-Martinez, 19-CV-02993 (No. 20-1249)

(10th Circuit)

Alberto Matias-Martinez, 19-CV-02993 (U.S. Dist. Court for Colorado)
People v. M&tias-Martinez, 92CR873 (Weld County Colorado Dist. Court)
People v. Matias-Martinez, 14CA2142 (Colorado Court of Appeals)
People v. Matias-Martinez, 19SC271 (Colorado Supreme Court)

TABLE OF CONTENTS
OPINIONS BELOW..................................
.....

JURISDICTION.............................................
.........8

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

9

STATEMENT OF THE CASE...................................
• 10

REASONS FOR GRANTING THE WRIT......................
•16

CONCLUSION...................
• Mill

...... 29

INDEX TO APPENDICES
APPENDIX A- Matias-Martinez v. Dean Williams, No. 20-1249 (10th Cir.)
APPENDIX B- Matias-Martinez v. Dean Williams, 19-CV-02993 (US Dist.)
APPENDIX C- People v. Matias-Martinez, 19SC271 (Col. Sup.)
APPENDIX D“ People v. Matias-Martinez, 14CA2142 (Col. App.)

APPENDIX E
APPENDIX F

1RHLECF janKKEEIES CUED
CASE

eages

Ardolino v. People, 69 P.3d 73, 76 (Colo. 2003)

20, 25

Artuz v. Bennett, 531 U.S. 4, 8 (2000)

17

Clarions v. Mississippi, 494 U.S. 738, 746 (1990)

20

Golaran v. Thcnpson, 501 U.S. 722 (1991)

20, 25, 26

Davis v. People, 871 P.2d 769 (Colo. 1994)

17

Doe v. Jones, 762 F,3d 1174, 1182 (10th Cir. 2014)

23

Dooly v. People, 2013 CD 34, R 2, 302 P.3d 259, 261

20

Hatch v. Oklahcma, 58 F.3d 1447, 1460 (10th Cir. 1995)

21

yHouse v. Bell, 547 U.S. 518, 53637 (2006)

22

Martinez supra, 132 S.Ct. at 1317-18

21, 25, 26

Martinez v. Ryan, 132 S.Ct. 1309, 1317 (2012)

20, 24

Massaro v. U.S., 123 S.Ct. 1690, 1694 (2003)

20, 25

MoQuin v. Perkins, 569 U.S. 383, 392-93 (2013)

22

Milton v. Miller, 744 F.3d 660, 672-73 (10th Cir. 2014)

23

People y, Breaman, 939 P.2d 1348, 1351 (Colo. 1998)

18

People v. Germany, 674 P.2d 345 (Colo. 1983)

20

People v. Mills, 163 P.3d 1129, 1132 (Colo. 2007)

18

Ross v. Oklahoma, 487 U.S. 81, 91 ((1988)

20

Schlup v. Delo, 569 U.S. 298, 327 (1995)

22

Strickland v, Washington, 466 U.S. 668 (1984)1

8, 24

Williams v.

23

Taylor, 529 U.S. 420, 437 (2000)

TABLE CF ALUHCRITIES ci'ivn
STATU1E

PAGES

§ 18-1-410 C.R.S.

20

§ 18-4-302 C.R.S.

10

§18-3-102(1)(b) C.R.S.

10

28' U.S.C. § 2244(d)(1)(A)

15, 17, 18, 19, 21, 22, 26

28. U.S.C. § 2254

14, 16, 17, 18, 19

OCNSmunCNAL AUUCKLTY

Fifth Amendment
Sixth Amendment
Fourteenth Amendment

PRO SE PLEADING
The Petitioner respectfully request that the Court notice
the provisions of Haines v. Kernes, 404 U.S. 519, 520-21

(1972)

which states in part, "In pro se pleadings, motions, and other
papers, they must be construed liberally. As such, the
pleadings should not be denied or dismissed merely because the
pro se party fails to cite proper legal authority, confusion of
various legal theories, poor syntax, sentence construction, or
unfamiliarity with pleading requirements and give limited
guidance."

6

IN THE

SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to

review the judgment below.

OPINIONS BELOW

W For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix _A___ to
the petition and is
[ ] reported at________________ _____ _____________ .
[ ] has been designated for publication but is not yet reported; or’
y is unpublished.
’ ’
The opinion of the United States district court appears at Appendix
the petition and is

B

[ ] reported at __ ________________________ _________. Qr
[ ] has been designated for publication but is not yet reported’ or
[x] is unpublished.
’ ’
[ ] For cases from state courts:
'Kie opinion of the highest state court to review the merits appears at
Appendix------- to the petition and is
[ ] reported at __________________________________ Qr
[ ] has been designated for publication but is not yet reported* or’
[ ] is unpublished.
The opinion of the _
court
appears at Appendix
to the petition and is
[ ] reported at____________ ________________________ . Qr
[ ] has been designated for publication but is not yet reported* or’
[ ] is unpublished.

n.

to

JURISDICTION

y For cases from federal courts:
The date on which the United States Court of Appeals decided
was .September TO. 2020
PpeaiS aeciaed my case
[x] No petition for rehearing was timely filed in my case.
[1

^ ^ by the U"ited

, and a copy of the

order denying rehearing appears at Appendix
1 1 to anSfftime to me the petiti0”^ »
in Application No.__ A______

Court of

ofeertiorari was gra
nted
(date)
‘

The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
pie date on which the highest state court decided my case was
A copy of that decision appears at Appendix____
[ ] A timely petition for rehearing was thereafter denied on the following date:
-------------- ---------- ------ , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari
was granted
to and including _____________(date) on __________
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

CONSTITUTIONAL PROVISIONS:

Fifth Amendment to the United States Constitution:
"No person shall be compelled, in any criminal case, to be a
witness against himself nor be deprived of life, liberty, or
property, without the due process of law."
Sixth Amendment to the United States Constitution:
"The accused has the right to the assistance of counsel in his
defense."

Fourteenth Amendment to the United States Constitution:
"Nor shall any state deprive any person of life, liberty or
property without due process of law, nor deny to any person
within jurisdiction the equal protection of the laws."
FEDERAL STATUTES:
§2254(d)(2):
"The State Court's decision resulted in a decision based
upon an unreasonable determination of the facts."
§2254 (e) (2) :
"The petitioner shall demonstrate that a factual predicate
that could not have been previously discovered through the
exercise of due diligence exist."
9

STATEMENT OF THE CASE
In 1992, Mr. Matias-Martinez was convicted of two counts of felony murder
pursuant to Colorado State Statute §18-3-102(1) (b) C.R.S. The predicate offense
was attempted aggravated robbery pursuant to § 18-4-302 C.R.S. These charges
stemmed frcm the shooting deaths of Juan and Aurelia Lara, employers of Mr.
Matias-Martinez, as well as many other undocumented migrant field workers, who
were present on the day of the murders. Payroll was due that day and the Laras
were transporting sane $26,000.00 dollars when they were ambushed and killed in
their truck. Oddly, the payroll was not taken and found in the truck following
their demise, as if the shooters were unaware of its existence.
The police were motivated to find and convict the persons responsible for
the crimes, however, despite two persons' hemes being in the immediate vicinity of
the murders/killings of Juan and Aurelia Lara, it was not until several months
later (and the following up of over one-hundred and twenty leads, that it was
alleged that a bright yellow truck had been seen in the area of the murders.
It is important to note that neither of the two witnesses to the murders,
one of whom lived within 150 feet of the crime and the other within 625 feet, said
they saw this yellow truck. Rather, they identified a red and green car near the
Lara's truck.
The facts of this case were set forth in detail in his state court post­
conviction filings and in his Habeas Petition. They are long, detailed and
support a claim of the actual innocence of Mr. Matias-iyfertinez.
In a nutshell, the facts of the case reflect that the Laras were murdered
by Ramon Gonzales, and others, who were members of the.Gallegos drug family or
cartel. The Laras had confronted the Gallegos family, who had been selling to
their field workers, informing them unless these ceased doing so, they would
report them to the police. This threat incited the drug family to take
10

retaliatory action to protect their profits, i.e., the Laras had to be removed.
At the time the Laras were murdered, Mr. Matias-Martinez' s wife, Tanya
Mackey was involved in a sexual relationship with Ramon Gonzales. In fact she
became pregnant with his child, a fact that later was proven to be true and
created an impetus for her to fabricate her story initially. Ms. Mackey
ultimately changed her story several times. While initially implicating Mr.
Matias-Martinez in the Lara's murder, she later recanted, claiming first that
her uncle held a gun to her head (an uncle she feared because he sexually
abused her, which forced her to make such a statement), then later claimed the
police coerced her. (It should be noted that Ms. Mackey's statements varied
wildly from the actual physical facts of the case.)
Counsel sought to suppress Ms. Mackey's statements prior to trial to no
avail. She was the only witness to place Mr. Matias-Martinez at the scene of
the crime and without the original statement he would not have been convicted.
It also should be noted that had trial counsel done his job and located alibi
witnesses (Mr. Matias-Martinez's substantive claim pending before the trial
court) i.e. field workers who were with him, it is clear that he also would
not have been convicted. This may have been somewhat problematic as most were
illegals and fled rather than to be apprehended by ICE, identified and
deported.
As it turned out, the yellow truck seen in the area of the Lara's murders,
belonged to another member of the drug gang who had been confronted by the Laras
for selling drugs to their workers, i.e., Pablo Gallegos. (It was Mackey who
said she saw Mr. Matias-Martinez point a gun at a person in a yellow truck.)
Gallegos was interviewed and showed a photo array. Gallegos identified another
from the photo array as the person who allegedly pointed a gun at him. The
police then asked him if anyone else looked familiar and he identified Mr.
Matias-Martinez.
ll

The Laras were shot and killed by multiple caliber weapons, indicating
there were multiple shooters. Mackey's statements said that Mr. Lara was shot
while driving the truck and when Mrs. Lara got out of the truck and attempted
to flee, she was shot in the back. In fact it was only Mackey's statement
which connected Mr. Matias-Martinez to the shooting deaths of the victims, as
no other person was able to identify him.
Mr. Matias-Martinez is an innocent man, who has been convicted and is
serving a life without the possibility of parole sentence based solely on
statements of a woman who had every reason and motivation to fabricate her
story.
In Judge Gallagher's recommendations, he is dismissive of any claim of
actual innocence on the part of Mr. Matias-Martinez, given that he was
convicted of felony murder. Colorado's felony murder statute allows for the
conviction of a person who did not actually commit said crime, if the other
person intended to commit an underlying predicate felony (in this case
attempted aggravated robbery), and someone, other than one of the
participants in the underlying offense is killed during the course of
commission of the predicate offense.
Sadly, despite overwhelming evidence indicating actual innocence in
this case, i.e., that Mr. Matias-Martinez wasn't even at the scene, but
rather picking onions in a nearby field, (again it is only Mackey's recanted
and uncorroborated statement that connects Mr. Matias-Martinez to the
/ no °ne seems to care. Instead there is this presumption that,
based upon Mackey's initial, coerced and uncorroborated statements, that Mr.
Matias-Martinez is guilty.
At seme point the question of whether innocence is relevant has to come
into question. Mr. Matias-Martinez is a pro-se prisoner with limited
educational Skills (he still has not completed his G.E.D.) Yet somehow he is
12

supposed to gather evidence to support his actual innocence.
Mr. Matias-Martinez's case has "[a] long and tortuous history."
Following his direct appeal, Mr. Matias-Martinez filed a pro-se Crim. P. Rule
35(c) motion for post-conviction relief in Colorado. Counsel, i.e. Jeffrey
Edelman was initially appointed to repesent Mr. Matias-Martinez. Again sadly,
Mr. Edelman is one of the reasons lawyers get bad reputations. For almost 14
years, Mr. Edelman did nothing, except seek and obtain funding to investigate
Mr. Matias-Martinez's case. This period was the time when Mr. Matias-Martinez
had the best Chance to gain supportive evidence for his actual innocence, but
Mr. Edelman squandered that opportunity.
Finally, in 2011, Mr. Edelman was forced to withdraw and Kathleen
Carlson was appointed to represent Mr. Matias-Martinez. Within less than a
year, Ms. Carlson conducted the investigations necessary to discover
sufficient evidence to support Mr. Matias-Martinez's claim of actual
innocence. However, prior to her being able to present and properly argue
these facts, Ms., Carlson died.
In 2013, new counsel was appointed. Counsel withdrew all but one claim.
The only claim which remained was whether there was newly discovered evidence
concerning Mackey's relationship with Gonzales. An evidentiary hearing was
held, relief on this claim denied and the Public Defender's Office was
appointed for appellate purposes.
The P.D. held the case for approximately 3 years. Ultimately, the P.D.'s
Office determined there was conflict and they too withdrew, assigning another
alternate defense counsel attorney, i.e., Brian S. Eneson. Mr. Qneson filed a
detailed Opening Brief setting forth additional facts of Mr. MatiasMartinez's case. Again, despite these detailed facts, no review of Mr.
Matias-Martinez innocence was done.
Mr. Matias-Martinez will show that he did in fact have a properly
13

filed Motion for Post-conviction Relief pending before the Colorado courts,
i.e., since 1997, consequently his § 2254 habeas application was timely
filed. This is' due to the fact that as a matter of Colorado law, an
attorney cannot be appointed to represent a defendant merely for
investigatory purposes.
This fact is supported by the idea that when Jeffrey Edelman was
forced to withdraw and Kathleen Carlson made her entry of appearance, there
had to have been a post-conviction motion pending or counsel could not have
been assigned. In fact, the Colorado Court of Appeals never finds that there
wasn't a properly filed motion for post-conviction relief pending before the
Colorado courts, but rather, that the post-conviction action was one
continuous event, i.e., since the filing of Mr. Matias-Martinez's 1997
motion.
It was only the Colorado Attorney General's Office, Assistant Attorney
General Ellen Michaels who suggests otherwise. Ms. Michaels, for the first
time argued in the Pre-Answer Response, that the reversal and remand which
required the trial court to allow investigation into potential alibi
witnesses, i.e., investigate and interview Mr. Matias-Martinez's
codefendants who had been convicted of the murders and incarcerated in
Mexico, was not connected to any 35(c) motion.
Ms. Michael's argument is clearly refuted by the fact that Jeffrey
Edelman, Mr. Matias-Martinez's initial post-conviction counsel was appointed
to investigate and support Mr. Matias-Martinez's claim of ineffective
assistance of trial counsel for failure to investigate Mr. Matias-Martinez's
alibi witnesses. Hence the Colorado court of Appeals Order remanding Mr.
Matias-Martinez's claim to allow investigation of the codefendants being
held in Mexico (following their convictions there), was based upon a valid
claim of ineffective assistance of trial counsel.
14

In other words, the CGA's Order of Rearend reinstated a valid 35(c)
claim which remained pending throughout the course of Mr. MatiasMartinez's Colorado post-conviction proceedings. In turn this properly
tolled the statutory limitations set by § 2244 (d) (1) (A), and contrary to
the lower court's ruling, Mr. Matias-Martinez’s § 2254 habeas application
was timely.
Assuming arguendo that this Court rejected the previous argument,
Mr. Matia-sMartinez will also assert an ends of justice exception, i.e.,
his actual innocence satisfies that narrow exception to warrant
equitable tolling of the statutory time limitations set by §
2244(d) (1) (A) .
Minimally, Mr. Matias-Martinez would submit that there is need for
appointment of counsel, as well as evidentiary development of his actual
innocence claims, as innocence is relevant, especially given the
particulars of his case and the extended work of seme of his Colorado
attorneys (officers of the Court), who believed in said. This need is
exacerbated by the fact that he was never allowed evidentiary
development of his innocence at the state level.
Instead, every lower court, as did Judge Gallagher, dismissed any
such claim, because Mr. Matias-Martinez was convicted of felony murder.
That is he must have been involved in seme fashion despite clear
evidence to the contrary. Mr. H&tias-Martinez did file an appropriate
petition for review and this Honorable Court should remand with

15

instructions for appointment of counsel and a full evidentiary hearing.

REASONS FOR GRANTING THE PETITION

The Petitioner's Fifth, Sixth and Fourteenth Amendment
Rights have been violated in ways that conflict with the laws
and Constitutions of the United States and violates precedent
of this Court.
The decisions of the lower court are erroneous, but more
importantly, the questions presented by the Petitioner are of
national importance and should the decision of the lower court
stand then those criminal defendant's that are actually innocent
and incarcerated will never have the opportunity for relief due
to error and technicalities that are not their doing.
The lower court's reasoning is flawed and is conflict with
the prior standings of this court and other federal court of
appeals.

16

I.

WHETHER THE LOWER COURTS ERRED IN FAILING TO FIND
THAT Mr. MATIAS-MARTINEZ'S § 2254 HABEAS APPLICATION
WAS TIMELY FILED, OR IN THE ALTERNATE, THAT HE WAS
ENTITLED TO EQUITABLE TOLLING OF THE STATUTORY TIME
LIMITATIONS SET BY §2244(D)(1)(A), DUE TO STATEIMPOSED IMPEDIMENT OR BECAUSE HE IS ACTUALLY
INNOCENT?

All § 2254 habeas applicants must seek review of their
state conviction within one year frcm the date their conviction
becomes final. This one year period runs frcm one of several dates set
forth within subsection (A)-(D) of that statute, and the one year period
"during which [the applicant has] a properly filed application for. State
post-conviction or other collateral review__ is pending shall not be
counted toward any period of limitation under this subsection." 28
U.S.C. § 2244(d) (2); see also, Artoz v. Barnett, 531 U.S. 4, 8 (2000).
In the instant case, the U.S. District Court of Colorado found
initially that Mr. Matias-ffertinez' s § 2254 habeas application was
untimely, i.e., that the one year period set by § 2244(d) (1) (A) had
expired due to the fact that when Mr. Matias-Martinez appealed the
denial of his initial Crim. P. Rule 35(c) motion, which was ultimately

17

reversed in part by the Colorado Court of Appeals, there were
insufficient issues remaining to find that a proper post-conviction
motion remained pending before the state courts.
In doing so, the lower court sided with Assistant Colorado Attorney
General and found that despite the court's reversal for issuance of
Letters Rogatory, (to investigate/interview alibi witnesses), left no
substantive claim for post-conviction relief before the district court
to review.
Respectfully, this finding is flawed given that one of Mr. MatiasMartinez's initial claims for post-conviction relief was that counsel
was ineffective in failing to interview and summon alibi witnesses at
trial. Counsel's failure to call alibi witnesses meets the requirements
of Davis v. People, 871 P.2d 769 (Colo. 1994)," a Colorado Svpreme
Court case that discuses the requirements set by the U.S. Supreme Court
in Strickland v. Washington, 466 U.S. 668 (1984) and the
constitutional requirement that counsel conduct sufficient
investigations So that he/she can may reasonable decisions as to how to
proceed and/or what witnesses to call.
In other words, when the trial court failed to provide findings or
issue the Letters Rogatory, a decision that was reversed by the
Colorado Court of Appeals, there was in fact a substantive claim still

18

pending before the trial court. That claim was whether trial counsel
was ineffective in failing to investigate and call the alibi witnesses.
Respondent-Appellee's arguments to the contrary, raised for the
first time in their Pre-Answer Response to Mr. Matais-Martinez' s § 2254
habeas application, was merely a means to an end, i.e., stop further
review of a defendant's claim of actual innocence under a procedural
rule.
If, as stated by Respondent-Appellee's there was no post-conviction
action pending before the trial court for seme seven (7) years, then
not only would Mr. Matias-Martinez' s 2012 Crim. P. Rule 35(c) motion
would have been successive. Mr. Martinez would also not have been
allowed the assistance of counsel during those 7-years, as the Colorado
Supreme Court has repeatedly determined that as a procedural matter,
counsel cannot be appointed for purely investigatory purposes. People
v. Beeaman, 939 P.2d 1348, 1351 (Colo. 1998); Bscple v. Mills, 163 P.3d
1129, 1132 (Colo. 2007).
Again, respectfully, Mr. Matias-Martinez submits that according to
these irrefutable facts, he did have a properly filed motion for post- '
conviction relief pending before the state courts since 1997 and thus
his instant § 2254 habeas application was timely, i.e., filed within
the time constraints set by § 2244 (d) (1) (A) .

19

Mr. Matias-Martinez respectfully submits that he is, if necessary,
entitled to equitable tolling of the statutory time limitations set by §
2244(d) (1) (A) under subsection (B) of that statute, i.e., due to a stateimposed impediment, or alternatively because he is actually innocent.
State-Imposed Impediment:
28 U.S.C. § 2244(d)(1) (B) allows that the one year period within which a
habeas applicant must seek review of his state conviction runs from:
"the date an which the impediment to filing an
appl ication created by State action in violation of
the Constitution or laws of the United States is
removed, if the applicant was prevented from filing
by such State action"
As was noted in Mr. Matias-Martinez's Objections to Magistrate
Judge Gallagher's Reccnmendations is whether there was an "impediment"
which prevented him from discovery that his state post-conviction motion
had been dismissed? "Impediment," is defined as being a hindrance,
obstacle, barrier, block or restriction.
As already noted, Colorado law prohibits the appointment of post­
conviction counsel for merely investigatory purposes. Given this fact,
it is indisputable that Mr. Matias-Martinez relied on the fact that he
maintained post-conviction counsel following the Colorado Court of
Appeals ronand in 2005, as understanding that he had a pending post­
conviction action before the trial court.

20

Assuming arguendo that there wasn't a valid motion pending, i.e.,
the Colorado courts did not follow their own procedures. It then must be
explained how Mr. Matias-Martinez is supposed to figure this out? He was
represented by trained legal counsel and clearly that counsel believed
something was pending. Otherwise counsel would not have continued to
investigate.
Moreover, while there is no constitutional right to assistance of
counsel in pursuit of post-conviction relief, (see CdLanan v. Thompson,
501 U.S. 722 (1991)) there is well-established U.S. Supreme Court law
which dictates that when a state fails to follow its own law, rules and
regulations that such a failure may rise to the level of an independent
Fourteenth Amendment due process violation. See Hatch v. Oklahoma, 58
F.3d 1447, 1460 (10th Cir. 1995) (citing Clarions v. Mississippi, 494 U.S.
738, 746 (1990), and Ross v. Oklahoma, 487 U.S. 81, 91 ((1988).
Colorado law clearly creates a substantive procedural due process
right which allows all criminal defendants to seek collateral review of
their conviction, regardless of whether the defendant took a direct
appeal or not. See § 18-1-410 C.R.S.; see also, Dooly v. People, 2013 CO
34, R 2, 302 P.3d 259, 261; People v. Germany, 674 P.2d 345 (Colo. 1983).
It is also true that when states, such as Colorado, regulate
claims of constitutional entitlement to the collateral review venue, a
defendant's initial-review post-conviction motion becomes the equivalent

21

of an extension of the defendant's first appeal as a matter of right. See
Martinez y. Ifran, 132 S.Ct. 1309, 1317 (2012); see also, Ardolino v.
Bacple, 69 P.3d 73, 76 (Colo. 2003) (citing tfessaro v. U.S., 123 S.Ct.
1690, 1694 (2003), and finding that claims of ineffective assistance of
trial counsel are regulated to the collateral review venue in Colorado.
Consequently, one could argue that because Mr. MatiasHMartinez is
required to post a challenge to his trial counsel's effectiveness, i.e.,
failure to investigate and call alibi witnesses at trial, in a post­
conviction motion, he is also entitled to receive effective assistance
of counsel in pursuit of that initial-review motion. See e.q., tfert--in<*g
supra, 132 S.Ct. at 1317-18 (fashioning a remedy which allows, due to
either ineffective assistance of initial-review post-conviction counsel
or failure of a state to appoint counsel on an initial-review motion,
"cause" for procedural default of any claim of ineffective assistance'of
trial counsel, provided the claim is substantial, i.e, has "seme
merit.")
Accordingly, Mr. ffetias-Martinez submits he has shown "stateimposed inpediment" which results in a violation of Mr. MatiasMartinez' s Fourteenth Amendnent due process protections, as the trial
court did not fully and fairly dismiss Mr. Matias-Martinez's initialreview post-conviction motion. Moreover, because the trial court allowed
post-conviction counsel to remain on the case, Mr. Matias- Martinez

22

could not have reasonably learned that there was not a substantive claim
remaining which would toll the statutory limitations set by §
2244(d)(1)(A).
Put simply, Colorado's failure to follow its own laws and rules
with respect to how post-conviction review is conducted deprived Mr.
Matias-Martinez and kept him frcm learning the truth, i.e. that there
was no claim pending before the trial court. After all, it is clear
post-conviction counsel believed such a claim remained.
Bottom line is that there was a state-imposed impediment which
prevented Mr. Matias-Martinez from discovery of the lack or a properly
filed motion for post-conviction relief that would have tolled the
statutory limitations set by § 2244(d)(1) (A), and as such he should be
allowed equitable tolling of those limitations under subsection (B) of
that statute.
This Court has set forth an exception to the time limitations set
by § 2244(D)(1)(A), through the allowance of equitable tolling of those
limitations, provided the habeas applicant can make a colorable showing
that he/she is actually innocent of the crimes he/she was convicted of.
See MaQuin v. Perkins, 569 U. S. 383, 392-93 (2013); Schlup v. Delo,
569 U.S. 298, 327 (1995); see also, House v. TteTI, 547 U.S. 518, 53637
(2006). This exception is allowed in order that a manifest miscarriage
of justice does not occur.

23

The record before this Court, which Mr. Matias-Martinez request this
Court to take notice of, was before the lower court, as well as a
separate affidavit frcm another prisoner, a compilation of facts relevant
to Mr. Matias-Martinez's case (as set forth by an officer of the
Colorado courts); and a letter showing that an investigation is being
conducted by the Innocence Project of Colorado. All of these items, show
facts that»were not presented at trial and which make a credible showing
that Mr. Matias-Martinez is actually innocent.
The plain and simple truth is that Mr. Matias-Martinez was at work
picking onions when the Laras were murdered. He has no connection to
those who committed said and other than his coerced wife, who had a
baby with an alternate suspect, i.e., a suspect connected to a drug
gang the Laras had confronted and threatened to turn into the police.
There is nothing to connect Mr. Matias-Martinez to the Lara's
deaths. So we speculate that because Mr. Matias-Martinez knew the Laras
paid in cash (as did all migrant workers picking in the fields,
something that is not uncommon given the undocumented workers who
perform such labor), he must have been involved? This speculation would
require a conclusion that the plan was to rob the Laras. This
speculation fails given they were not robbed.
Instead $26,000.00 dollars was left in the cab of the Lara's
truck, all without any eye witness to the crime (other than allegedly

24

Ms. Mackey, who did not state this in her initial statement and later
recanted statements, statements she said were coerced. Why would anyone
leave $26,000.00 dollars lying in the cab of the Lara's truck if they
killed them in order to rob than? Certainly this alone, even without
all the other facts set forth in Mr. Matias-Martinez's 2012 post­
conviction motion and attachments to his Reply to Respondents' PreAnswer Response, is sufficient to make a colorable claim of actual
innocence, i.e., one which if proven true would allow for equitable
tolling. See e.q., Doe v. Jones, 762 F,3d 1174, 1182 (10th Cir. 2014).
Here, Mr. Matias-Martinez attanpted to develop the facts of his
actual innocence in the state courts and was denied said. Hence the
failure to develop than cannot be attributed to him as he has acted with
diligence. See Williams v.

Taylor, 529 U.S. 420, 437 (2000); Milton v.

Miller, 744 F.3d 660, 672-73 (10th Cir. 2014) (allowing for an evidentiary
hearing because state courts denied development of claims of ineffective
assistance of trial counsel.)

25

II.

WHETHER THIS COURT, FOR THE BETTERMENT AND PROTECTION
OF THE CITIZENS OF THESE UNITED STATES, MUST CLARIFY
AND MAKE THE RULE ABSOLUTE FOR THE LOWER COURTS AND
THE STATES IN REGARDS TO THE PROVISIONS SET FORTH BY
THIS COURT IN MARTINEZ V. RYAN, 132 S.CT. 1309 (2012),
ALLOWING FOR EQUITABLE TOLLING OF THE STATUTORY
LIMITATIONS SET BY 28 U.S.C. § 2244(D)(1)(A), UNDER
SUBSECTION (B) OF THAT STATUTE, WHEN SUCH DEFAULT IS
THE RESULT OF INEFFECTIVE ASSISTANCE OF COUNSEL?

In the instant case, Mr. Matias-Martinez' s initial-review collateral
attack motion continued to represent him upon remand following appeal, all
the while failing to refile a proper state collateral attack motion. As a
result, when the A.E.D.P.A. was enacted in April of 1996, Mr. MatiasMartinez's one-year time limitation carmenced and then expired, as counsel
represented him for seme 9-plus years, all the while doing nothing to
benefit him. As a result, counsel's performance was deficient and
prejudicial as assessed under this Court's standards set in Strickland v.
Washington, 466 U.S. 668 (1984), Mr. Matias-Martinez therefore submits that
he should be entitled to equitable tolling of the one-year limitations set
for seeking federal habeas review.
In Martinez v. Ryan, 132 S.Ct. 1309, 1317-18 (2012), this Court

26

fashioned a remedy which allows an exception to the exhaustion
doctrine, i.e., when a state regulates a claim of constitutional
entitlement to its collateral review venue and then either fails to
provide assistance of counsel in review of that claim, or counsel is
ineffective, the prisoner is allowed "cause" for default of any such
claim.
In doing so, this Court recognized that "an attorney's errors
during an appeal on direct review may provide cause to excuse
procedural default; for if the attorney appointed by the State to
pursue the direct appeal is ineffective, the prisoner has been denied
fair process and the opportunity to comply with the State's procedures
and obtain an adjudication on the merits of his claims." Id, at 1317
(citing Coleman v. Thctipson, 501 U.S. 722, 754 (1991) .
This claim regulated in Martinez was one of ineffective assistance
of trial counsel which numerous states require to be reviewed in a
collateral attack motion, as it allows for evidentiary development of
what the most part is a fact based claim. See e.q., Massaro v. U.S., 123
S.Ct. 1690, 1694 (2003); Ardolino v. People, 69 P.3d 73, 76-77 (Colo.
2003)(citing Massaro and other Colorado cases, which require claims of

27

ineffective assistance of counsel to be raised in a Crim. P. Rule 35(c)
motion, rather than on direct appeal). Further, this Court found that
when a state regulates a claim of constitutional entitlement to its
collateral review venue, the prisoner's initial-review collateral attack
motion is analogous to being an extension of the prisoner's direct
appeal. Id, 132 S.Ct. at 1317.
So, again, this Court in Martinez fashioned a remedy which would
allow a prisoner review of a procedurally defaulted claim of ineffective
assistance of trial counsel if a state fails to either appoint counsel
on the prisoner's initial-review post-conviction motion, or post­
conviction-counsel is ineffective on that action and the prisoner's
claim is substantial, i.e. it has "some merit." Id at 1318.
This decision was one that protected a prisoner's due process
rights, as in Coleman it was clearly established that when there is a
constitutional right to receive effective assistance of counsel, and
during that representation counsel defaults a claim or procedure, that
default may correctly be imputed to the state. Id, 501 U.S. at 754.
The question before this Court is whether protection of a
prisoner's due process rights to receive review of a claim of ineffective

28

assistance of trial counsel regulated to a State's collateral review
venue results in procedural default by counsel, in turn causing the
prisoner to be time barred from review under 28 U.S.C. § 2254, by the
federal courts, requires that such default be imputed to the State as
well. Petitioner submits that it does and that he should have been
allowed equitable tolling of the statutory limitations set by 28 U.S.C. §
2244(d)(1)(A), under subsection (B) of that statute.
In other words, does the exception set forth in

supra, also

require toiling of the limitations set by the Anti-terrorism and Effective
Death Penalty Act? This Court must clarify the issue and make the rule
absolute for the lower court's and the states.

CONCLUSION
WHEREFORE, the Petitioner prays that for all of the issues
contained in this Writ of Certiorari and in all of his previous
filings his petition will be granted.

29

The lower court's have failed the petitioner and have
allowed these unjust actions to stand. The petitioner has more
than met his required burden to justify a form of relief.
The Defendant prays for mercy and justice as afforded him
as an incarcerated member of these United States.

Respectfully Submitted:

A3d^£to matias-Martinez, Pro se
Req. No. 81725
Arkansas Valley Correctional Facility
Colorado Department of Corrections
12750 Highway 96, Lane 13
Ordway, CO 81034

30

